No. _________
IN THE

Supreme Court of the United States
DE’UNDRE TURNER,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Eleventh Circuit
PETITION FOR A WRIT OF CERTIORARI

MICHAEL CARUSO
Federal Public Defender
ANSHU BUDHRANI
Assistant Federal Public Defender
Counsel of Record
150 West Flagler Street
Suite 1700
Miami, FL 33130
305-530-7000
Counsel for Petitioner

APPENDIX

TABLE OF APPENDIX
Appendix A: Opinion of the U.S. Court of Appeals for the Eleventh Circuit (Sept.
17, 2020) ....................................................................................................................... 1a

APPENDIX A

United States v. Turner, 827 Fed.Appx. 996 (2020)

827 Fed.Appx. 996
This case was not selected for
publication in West's Federal Reporter.
See Fed. Rule of Appellate Procedure 32.1
generally governing citation of judicial
decisions issued on or after Jan. 1, 2007.
See also U.S. Ct. of App. 11th Cir. Rule 36-2.
United States Court of Appeals, Eleventh Circuit.
UNITED STATES of America, Plaintiff-Appellee,
v.
De'Undre Rashad Robert
TURNER, Defendant-Appellant.
No. 19-14656
|
Non-Argument Calendar
|
(September 17, 2020)
Synopsis
Background: After defendant conditionally pleaded guilty to
possessing a firearm and ammunition as a convicted felon,
the United States District Court for the Southern District
of Florida, No. 1:19-cr-20245-RNS-1, Robert N. Scola, J.,
denied defendant's motion to suppress. Defendant appealed.

officers there were firearms in the vehicle, after
exiting the vehicle, defendant acted nervous
and was shaking, and after an initial pat down,
defendant admitted to the officers that he had a
firearm. U.S. Const. Amend. 4.

Attorneys and Law Firms
*997 Stacey Elizabeth Bergstrom, U.S. Attorney's Office,
Fort Pierce, FL, Aileen Cannon, Emily M. Smachetti, U.S.
Attorney Service - Southern District of Florida, U.S. Attorney
Service - SFL, Miami, FL, for Plaintiff - Appellee
Anshu Budhrani, Katherine Anna Carmon, Kathleen E.
Taylor, Assistant Federal Public Defender, Michael Caruso,
Federal Public Defender, Federal Public Defender's Office,
Miami, FL, for Defendant - Appellant
Appeal from the United States District Court for the Southern
District of Florida, D.C. Docket No. 1:19-cr-20245-RNS-1
Before WILLIAM PRYOR, Chief Judge, WILSON and
LAGOA, Circuit Judges.
Opinion
PER CURIAM:

[Holding:] The Court of Appeals held that police officers had
reasonable suspicion to seize and search defendant.
Affirmed.
Procedural Posture(s): Appellate Review; Pre-Trial Hearing
Motion.
West Headnotes (1)
[1]

Arrest

Particular cases

Arrest
Duration of detention and extent or
conduct of investigation
Police officers had reasonable suspicion to seize
and search defendant, and thus suppression
was not warranted for firearm discovered in
defendant's pants, where defendant was in
vehicle with other men who acknowledged to

De'Undre Turner, who conditionally pleaded guilty to
possessing a firearm and ammunition as a convicted felon,
appeals the denial of his motion to suppress. 18 U.S.C. §
922(g)(1). Turner argues that law enforcement officers lacked
reasonable suspicion to approach his vehicle, to detain him
while verifying that his passenger had a valid permit to carry
a concealed weapon, or to remove him from his vehicle and
pat him down for weapons. We affirm.
Detective Angel Delgado, Officer Ti'Andre Bellinger, and
other officers of the City of Miami Police Department drove
to a multi-family residence in the Model City neighborhood
of Miami, Florida, to collect genetic material from a resident.
Bellinger, who grew up in the area, and Delgado, who
patrolled the area regularly, knew that Model City was
plagued with drug-related violence and that police informants
had bought drugs at the residence. And Delgado suspected
that the resident would be armed because a lawful search of
the residence two weeks earlier led to the seizure of narcotics
and a firearm. Because the parking area was congested, the

1a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

1

United States v. Turner, 827 Fed.Appx. 996 (2020)

officers approached the residence from the street with their
body cameras activated.
Delgado detected movement inside a blue vehicle near the
residence, but he could not see the occupants through the
tinted rear windows. Concerned that he might encounter
the resident named in the warrant, Delgado walked to the
passenger's side of the vehicle. Its windows were rolled down
and the detective could see that there were three men in the
vehicle and that the front passenger had a gun protruding from
under his shirt at the waistband of his pants. The detective
asked if there were any guns in the vehicle, and the front
passenger quickly responded yes, began searching for a gun
permit, and then exited the vehicle with a card in his left hand.
After the front passenger volunteered that there was a second
gun under his seat, other officers ordered another passenger
to exit the rear seat and removed the second gun from the
vehicle.
*998 Meanwhile, Bellinger watched an officer approach
Turner as he sat in the driver's seat of the vehicle. Bellinger
recognized Turner from the neighborhood and noticed that
he was acting nervous and was shaking when he produced
his driver's license. After the officer heard about the second
gun, he asked Turner to exit the vehicle. Turner denied having
a weapon, but Bellinger escorted Turner to the back of his
vehicle and began to pat him down for weapons. Turner
became defensive and upset, so Bellinger stepped away from
Turner.
A few minutes later, Turner whispered to Bellinger, “I have
a gun, bra, I have a gun.” Bellinger confirmed that help was
nearby and then wrapped his arms around Turner to secure
him. Bellinger yelled, “gun, gun” and another officer removed
the gun from Turner's pants. Turner possessed a card that
identified him as a convicted felon.
We apply a mixed standard of review to the denial of a motion
to suppress. We review legal rulings de novo and related
findings of fact for clear error. United States v. Spivey, 861
F.3d 1207, 1212 (11th Cir. 2017). We consider the evidence
in the light most favorable to the prevailing party. Id.
End of Document

The district court did not err by denying Turner's motion
to suppress. Delgado was entitled, “without any level of
suspicion,” to approach a car in a dangerous locale with
an unknown number of occupants parked near a residence
where he and fellow officers were about to execute a warrant.
See Miller v. Harget, 458 F.3d 1251, 1257 (11th Cir. 2006)
(stating that police do not violate the Fourth Amendment by
“approaching a person in a parked car”). When Delgado saw
a gun in plain view in the front passenger's waistband, the
detective had reasonable suspicion to remove the passenger
from the car to determine whether he possessed a valid
permit to carry a concealed weapon, Fla. Stat. § 790.06(1).
See United States v. Lewis, 674 F.3d 1298, 1304–05 (11th
Cir. 2012). After the front passenger volunteered that there
was a second gun concealed under his seat, safety concerns
allowed officers to remove Turner from the driver's seat
“to control [his] movements ... and exercise command over
the situation.” See id. at 1308. Turner's nervous behavior
provided Bellinger reasonable suspicion to pat Turner down
for weapons. See Illinois v. Wardlow, 528 U.S. 119, 125, 120
S.Ct. 673, 145 L.Ed.2d 570 (2000). Bellinger did not find a
weapon and ceased searching Turner when he became upset.
Bellinger later had reasonable suspicion to seize Turner when
he admitted that he was armed, which led to the discovery
of the gun concealed in his waistband. See Terry v. Ohio,
392 U.S. 1, 27, 88 S.Ct. 1868, 20 L.Ed.2d 889 (1968). The
district court was entitled to credit Bellinger's testimony about
Turner's admission. See Lewis, 674 F.3d at 1303. As explained
by the district court, Bellinger's testimony was consistent with
the events recorded on his and another officer's body cameras,
which included his sudden decision to encircle Turner's arms
and chest and to yell “gun” until another officer removed a
gun from Turner's waistband.
We AFFIRM the denial of Turner's motion to suppress.
All Citations
827 Fed.Appx. 996

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

2a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

2

